                              AUDIT OF SBA’S
                      IMPLEMENTATION OF THE IMPROPER
                         PAYMENTS INFORMATION ACT

                                        JUNE 21, 2006

                                  REPORT NUMBER 6-25




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
                    U.S. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL
                            WASHINGTON, D.C. 20416


                                                                 AUDIT REPORT
                                                           Issue Date: June 21, 2006
                                                           Report Number: 6-25


To:            Jennifer E. Main
               Chief Financial Officer

               /S/ Original Signed
From:          Debra S. Ritt
               Assistant Inspector General for Auditing

Subject:       Audit of SBA’s Implementation of the Improper
               Payments Information Act

       We have completed an audit of the implementation of the improper payments
program at the Small Business Administration (SBA). Our audit identified one finding
and three recommendations.

                                    BACKGROUND

        The Improper Payments Information Act (IPIA) of 2002, Public Law No.
 107-300, requires all Federal agencies to: (1) conduct annual reviews of their programs
and activities and identify those that are susceptible to erroneous payments, (2) estimate
the amount of erroneous payments in susceptible programs, and (3) report the results to
Congress along with action plans for erroneous payment reduction. IPIA defines
improper payments as any payment that should not have been made or that was made in
an incorrect amount (including overpayments and underpayments) under statutory,
contractual, administrative, or other legally applicable requirements; and includes any
payment to an ineligible recipient, any payment for an ineligible service, any duplicate
payment, any payment for services not received and any payment that does not account
for credit for applicable discounts.

        In 2003, the Office of Management and Budget (OMB) issued Memorandum 03-
13, Implementation Guidance for the Improper Payments Information Act of 2002, which
instructs agencies on implementation of an erroneous payment identification and
reporting program. The memorandum clarifies that erroneous payment estimates in
susceptible programs must be statistically valid. Moreover, OMB’s revised Circular A-
123, Management’s Responsibility for Internal Control, effective 2006, identifies the
IPIA as one of the statutory requirements that should be considered in an agency’s
internal control framework.
       OMB, in Circular A-11, Preparation and Submission of Budget Estimates,
Section 57, identified that SBA’s four credit programs were susceptible to erroneous
payments. The Circular further required SBA to estimate and report erroneous payments,
and implement erroneous payment reduction plans. The programs identified are the
Section 504 Certified Development Company (CDC) Program, the Section 7(a)
Guarantied Loan Program, and the Small Business Investment Companies (SBIC)
Program which are run by SBA’s Office of Capital Access (OCA); and the Disaster
Assistance Loan Program which is run by the Office of Disaster Assistance (ODA).
Overall responsibility for erroneous payment reporting in SBA falls within the Office of
the Chief Financial Officer (OCFO).

                  OBJECTIVES, SCOPE AND METHODOLOGY

       The audit objective was to determine whether SBA has developed an erroneous
payment identification, reporting and reduction program that is in compliance with the
IPIA and whether management could rely on the existing erroneous payment activities to
provide several of the basic components of an effective internal control program required
by OMB Circular A-123.

        To accomplish this objective, we interviewed program managers in SBA’s four
credit programs identified by OMB as susceptible to erroneous payments. Additionally,
we reviewed the improper payment risk assessment activities in SBA’s non-credit
payment programs. Furthermore, we reviewed annual performance reports and
performed independent analyses of program results. We also consulted with OMB
officials regarding selected aspects of the process for initial implementation of the
erroneous payment requirement. Fieldwork was performed at SBA Headquarters in
Washington, DC; with subsequent audit revisions based on the OMB guidance and
OCFO discussions through May 1, 2006. Our audit was conducted in accordance with
generally accepted Government Auditing Standards.

                                  AUDIT RESULTS

        SBA can improve its compliance with Federal guidance on the improper payment
act requirements for the four major SBA programs identified in OMB Circular A-11.
Improvements are needed because the Agency has not fully documented detailed
procedures for its erroneous payment processes. As a result, the current program does
not consistently satisfy all elements of a comprehensive program to manage and reduce
erroneous payments.




                                           -2-
Finding 1:     SBA did not Establish Uniform Procedures for Risk Assessment and
               Reporting for Key Program Areas

       SBA did not establish uniform Agency-wide processes and procedures for the full
range of erroneous payment risk assessment and reporting activities. Each SBA program
was allowed to establish its own risk assessment process using the IPIA and the OMB
Memorandum 03-13 as guidance. As a result of the lack of uniform and documented
procedures, each SBA program office developed their own procedures and did not
consistently identify high risk areas of vulnerability in relation to improper payments.

       OMB Memorandum 03-13 requires an agency to review programs susceptible to
erroneous payments, estimate annual amounts, develop a plan to reduce erroneous
payments and report on erroneous amounts and progress made in reducing them.

        For FY 2004, SBA reported on four programs identified as risk susceptible.
Those four programs are 504 Certified Development Companies, 7(a) guarantied loans,
disaster loans, and Small Business Investment Companies. We identified issues with
three of four of the programs’ risk assessments and improper payment reports.

504 Certified Development Companies – Although SBA management performed an
improper payment review for its 504 CDC loan program and deemed it to be a low risk
process, the scope and type of review was not formally documented and reporting details
for the program were not fully supported. Specifically, risk assessments were not
documented and transaction analyses were not performed to support the low risk
conclusion. As a result, SBA could not provide assurance that necessary corrective
actions were taken to reduce or prevent improper payments in the 504 CDC loan
program.

7(a) Guaranteed Loans – SBA had started the implementation of a comprehensive review
program to satisfy FY 2005 improper payments reporting requirements for the guaranty
purchase process. However, the 7(a) guarantied loan program did not maintain complete
risk assessment documentation for its improper payment review in FY 2004 and did not
adequately identify the precise reasons for improper payments in the program.

Small Business Investment Companies – The SBIC program did make an estimate of its
improper payments, but that estimate did not utilize statistical sampling procedures as
required by OMB guidance.

        As a result, SBA program offices did not consistently identify high-risk areas of
vulnerability in relation to improper payments, and did not maintain documentation to
support whether their programs were susceptible to significant improper payments.
Without a complete assessment to identify risks of erroneous payments, any corrective
actions planned by SBA’s credit-programs to reduce erroneous payments may not
address the true systemic causes of erroneous payments in these programs.




                                           -3-
Management’s Response:

      Management generally agreed with our audit finding and recommendations.
Management noted that the IPIA establishes a $10 million threshold for improper
payment reporting and requested that we modify our recommendation to identify
improper payment risks only to those programs where the possibility of improper
payments exceeds $10 million. We have modified recommendation 1A accordingly.

        Management also noted that Appendix C to OMB Circular A-123, Management’s
Responsibility for Internal Control will supercede OMB Memorandum 03-13 as IPIA
implementation guidance and suggested that we modify our recommendation to cite the
circular. We agree, but note that the appendix is now only in draft form and has not yet
been finalized. We have modified recommendation 1C to include the use of OMB
Circular A-123 Appendix C as IPIA guidance when it is published and becomes
effective.


Recommendations: We recommend that the Chief Financial Officer:

1A     Require that systematic annual risk assessments be conducted and documented on
       all SBA programs and activities as appropriate to identify improper payment risks
       that would possibly exceed OMB’s $10 million threshold for improper payment
       reporting.

1B     Instruct all SBA program offices required to report on their improper payment
       activities to submit complete improper payment estimation and reduction reports
       that adequately address all of the elements required by OMB Memorandum 03-
       13; and all the elements of Appendix C to OMB Circular A-123 when it is
       published and becomes effective.

1C     Develop Procedural Notices or Standard Operating Procedures to be used as
       internal guidance as appropriate when changes to IPIA requirements are issued by
       OMB for the erroneous payment estimation and reporting process.



                                         ***
      The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.



                                           -4-
       Should you or your staff have any questions, please contact Jeffrey R. Brindle,
Director, Information Technology and Financial Management Group at (202) 205-
[FOIA Ex. 2].




                                           -5-
                                                  --     .
                            .        ,



                                                                                    Attachment 1

                      U.S. ShlALL BUSIh'ESS ADhlINISTRATION
                               \\'ASIIISCTOX,D.C.2D-llG




Date:
To:           Robert G. Hultberg
              Acting Assistant Inspector General for Audit

From:          Jennifer Main[ F ~ L A E X , , ~
               chief ~inanciafbfficer,

Subject:       Audit of SBA's Implementation of the Improper Payment.Information Act

This memorandum provides the SBA's comments on the OIG draft audit report dated
May 15,2006 on SBA's implementation of the Improper Payments Information Act. We
think the report is much improved from the original version circulated last fall and
appreciate your responsiveness to our wmments. Overall we generally agree with your
findings and recommendations. However, we have a few specific comments we would
like to make.

As you know, the Improper Payment Information Act established a $10 million threshold
for the IPIA requirements. Your recommendation 1.A. is for OCFO to:

        "Require that systematic annual risk assessments be conducted and documented
        on all SBA programs and activities as appropriate to identify improper payment
        risks."

OCFO's assessments have consistently found that the SBA's programs, except for the
four major credit programs currently reported under IPIA guidelines, are so small that
they couldn't possibly generate $10 million annually of improper payments. Moreover,
we have never had a .evidence or indication (through audits or other sources) that any
of SBA's non-credit programs have improper payment levels that begin to approach the
$10 million annual threshold.

We believe it is appropriate to conduct the annual risk assessments on SBA's smaller
programs in a summary manner using the risk assessment form provided by OMB that
SBA has used in past years. This provides appropriate documentation and the cost of the
effort is wmmensurate with the significantly lower level of improper payment risk in
these programs. We believe this approach is consistent with OMB's Memorandum 03-13
guidance that improper payment efforts should focus on programs which the Agency has
identified as susceptible to significant erroneous payments.

We request that you modify your recommendation 1.A. to recogniie the $10 million IPIA
threshold by adding the language in bold as follows:



                            re*..'   Ee:y-.Ln;   Fcp?   fa
        SBA IS Ah' EQUAL OPPORTUNr'!TY EMPLOYER AND PIIO\'IDER
                                                             Pr$?.:e: c>R-%:   P-
                                                                                      /
                                                                                          '



                                                             --     ,   .
                                                              =%woda~
                                                                    ~
      ~namLwdrado~duqroj pIoqsarqJ stmoaq) paaxa Llqissod p l n o qwq)
q s u ~ u a d e rado~duq
                d      &nap! q a~epdo~dde                             S
                                       sa s a g p y x pm smel%ardV ~ I@
no paJuamn3oppm papnpum aq spramssasse qsp p m r a qprnaqsAs lag q b a x
                                                :VI U O P ' P ~ a 9~1~0 X
                                                                                                             Attachment 2




                                           REPORT DISTRIBUTION


Recipient                                                                                                    No. of Copies

Chief Operating Officer ...........................................................................................1

Inspector General .....................................................................................................1

Chief Financial Officer
      Attn: Jeff Brown ...........................................................................................1

Office of General Counsel .......................................................................................3

Government Accountability Office..........................................................................1
